                                                                 L.-AI'IONALSCIENCE FOUNDATION
                                                                    WASHINGTON, D.C, 2 3 5 5 0




                                    Off i c e of
                                Inspector General



                                MEMORANDUM
                                        DATE:           March 3 0 , 1995   '



                                            FROM:
....   .-
        .............................       .-
                                             .   ..-.
                                                                                                         .-
                                                                                                 .....
                                        ?
                                            VIA :

                                    SUBJECT:            Allegation of Misuse of Funds rat
                                                                                       ~-ght


                                             TO:        Case No. I95020006                                        1




                            .
                              On February 13, 1992, we received an alleg
                              possible misuse of grants funds by the
                                            Since May 1994, several articles have appeared in the
                              newspaper suggesting that the b-1                acquired land for
                              their new museum building by a purchase price which was 3 times the
                              appraised value of the land. According to the articles,
                                       the former Director is said to have secured the agreement.
                             m i o n , the articles imply that the former associate director
                              was soliciting political contributions from individuals who had
                              business with the science center. In 1994, we awarded a grant
                                                                                                         -
                                We examined account summaries for this award and another grant
                                which was awarded in 1992. Though we did find some minor shifting
                                of funds among several expense categories, the use of the funds was
                                generally consistent with the                              We also
                                interviewed by telephone Dr.                         he principal
                                investigator (PI) on one of the gr                   stated that he
                                was not aware of any improper expenses but understood our concern.
                                As we found no evidence to substantiate the allegations of misuse
                                of funds, and due to limited investigative resources, further
                                investigation of the allegations is not warranted at this time.
                                This case is closed.                                                          I
                                                                                                              I
